         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report




       EPA Can Better Manage
       Superfund Resources

       Report No. 2006-P-00013

       February 28, 2006
Report Contributors:                Carolyn Copper              Chad Kincheloe
                                    Patrick Milligan            Jessica Knight
                                    Tina Lovingood              Barry Parker
                                    Pankaj Arora                Laura Tam
                                    Katherine Beam              Katherine Thompson
                                    Bryan Holtrop
                                    Jee Kim




Abbreviations

AOA             Advice of Allowance
ATSDR           Agency for Toxic Substances and Disease Registry
CERCLA          Comprehensive Environmental Response, Compensation, and Liability Act
CERCLIS         Comprehensive Environmental Response, Compensation, and Liability Act
                Information System
EPA             U.S. Environmental Protection Agency
EPM             Environmental Programs and Management
FTE             Full-Time Equivalent
FY              Fiscal Year
GAO             Government Accountability Office
IFMS            Integrated Financial Management System
NIEHS           National Institute of Environmental Health Sciences
NPL             National Priorities List
OARM            Office of Administration and Resource Management
OCFO            Office of the Chief Financial Officer
OECA            Office of Enforcement and Compliance Assurance
OIG             Office of Inspector General
ORD             Office of Research and Development
OSRE            Office of Site Remediation Enforcement
OSWER           Office of Solid Waste and Emergency Response
RP              Responsible Party
                        U.S. Environmental Protection Agency                                           2006-P-00013

                                                                                                    February 28, 2006 

                        Office of Inspector General


                        At a Glance 

                                                                           Catalyst for Improving the Environment

Why We Did This Review            EPA Can Better Manage Superfund Resources
We performed this review in
response to a congressional        What We Found
request to evaluate Superfund
expenditures at headquarters      We provide answers to congressional questions about EPA’s Superfund program
and the regions.                  expenditures. We also identify numerous opportunities for EPA to more
                                  effectively manage its existing Superfund resources, its program, and direct more
Background                        resources to cleanup. EPA needs to overcome challenges in accounting for
                                  Superfund resources, understanding the program’s resource needs, and
The Superfund program was         decentralized management of the Superfund program.
created in 1980, and since that
time and through FY 2003,         Several obstacles have prevented EPA from efficiently and effectively managing
over 1,500 of the Nation’s        the Superfund program for performance and adequately accounting for Superfund
highest priority hazardous        resources. EPA has been unable to allocate and manage Superfund resources for
waste sites have been cleaned     cleanup as efficiently and effectively as possible because of the way the Agency
up or are undergoing cleanup.     accounts for program resources, manages by functions, supplements the program
However, the Superfund Trust      with other funds, relies on an outdated workload model, and maintains
Fund has decreased over the       unliquidated Superfund obligations and funds in special accounts. Closely
years, and in FY 2004 and         aligning offices that support the Superfund program, and producing program
FY 2005, all Superfund            performance and cost data, have been limited because EPA disperses the
appropriations came from          responsibility for allocating and managing program resources.
general tax revenue rather than
the Trust Fund. Recent             What We Recommend
studies have reported
shortages in funding needs for    We recommend changes that will help EPA overcome these obstacles and better
Superfund, and have identified    manage its Superfund resources. We recommend actions that enable the Agency
needed improvements in how        to direct additional funds to Superfund cleanup. We recommend a specific action
the program is managed.           Congress could take to help improve the Superfund program. The Agency is
                                  developing a plan to implement our recommendations.
For further information,
contact our Office of
Congressional and Public
Liaison at (202) 566-2391.

To view the full report,
click on the following link:

www.epa.gov/oig/reports/2006/
20060228-2006-P-00013.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                              THE INSPECTOR GENERAL




                                         February 28, 2006

MEMORANDUM

SUBJECT:               EPA Can Better Manage Superfund Resources
                       Report No. 2006-P-00013

TO:                    Susan Parker Bodine
                       Assistant Administrator for Solid Waste and Emergency Response

This is the final report on the subject evaluation conducted by the Office of Inspector General
(OIG) of the U.S. Environmental Protection Agency (EPA). This evaluation report contains our
findings that describe the problems the OIG has identified and corrective actions the OIG
recommends. This represents the opinion of the OIG; the findings contained in this report do not
necessarily represent the final EPA position. Final determinations on matters in this evaluation
report will be made by EPA managers in accordance with established procedures.

We received EPA’s written comments on our draft report on August 18, 2005. We met with
EPA officials on October 20, 2005, to discuss their comments, and received additional comments
on February 10, 2006, after the Agency indicated it was developing an implementation plan to
respond to our recommendations.

Action Required

In accordance with EPA Manual 2750, as the action official, you are required to provide this
office a written response to this report within 90 days of the final report date. Your response
should address all recommendations and must include your concurrence or nonconcurrence with
all recommendations. For corrective actions planned but not completed by the response date,
please describe the actions that are ongoing and provide a timetable for completion. If you do
not concur with a recommendation, please provide alternative actions that address the findings
reported. We have also provided a copy of this report to the Assistant Administrators of the
other Offices that receive Superfund funding. We ask that should these officials choose to
provide a response to the final report, that you as the action official consolidate those responses.
For your convenience, this report will be available at http://www.epa.gov/oig . Please e-mail an
electronic version of your response to Milligan.Patrick@epa.gov .
If you or your staff have any questions regarding this report, please contact Rick Linthurst at
919-541-4909, or Carolyn Copper at 202-566-0829.

                                                             Sincerely,



                                                             Nikki L. Tinsley

cc: 	   Assistant Administrator for Research and Development
        Assistant Administrator for Air and Radiation
        Assistant Administrator for Administration and Resources Management
        Assistant Administrator for Enforcement and Compliance Assurance
        Acting Assistant Administrator, Office of Environmental Information
        Chief Financial Officer
        General Counsel
        Audit Liaison, Office of Solid Waste and Emergency Response
        Audit Liaison, Office of Research and Development
        Audit Liaison, Office of Air and Radiation
        Office of General Counsel, Director of Resources Management
        Audit Liaison, Office of Administration and Resources Management
        Audit Liaison, Office of Enforcement and Compliance Assurance
        Congressional Liaison, Congressional and Intergovernmental Relations,
               Office of the Administrator 

        Audit Liaison, Office of Environmental Information 

                                    Table of Contents 

At a Glance


Chapters
   1   Introduction ..............................................................................................................    1

                 Purpose ..........................................................................................................   1
                 Background ....................................................................................................      1
                 Scope and Methodology.................................................................................               6
                 Agency Response to the Draft Report and OIG Evaluation ...........................                                   6

   2   Obstacles Impact EPA’s Ability to Efficiently and Effectively Manage
       Superfund Resources ..............................................................................................             7

                 Superfund Managers Disagreed About How to Classify
                   Administrative Expenses ..............................................................................             7
                 Decentralized Management of Superfund Resources Limits Ability to
                   Manage Resources to Benefit Cleanup........................................................                        8
                 Incomplete Information on Superfund Costs Prevents Accurate Estimates
                   of Program Needs ........................................................................................          10
                 Outdated EPA Workload Model Used to Distribute Superfund Resources ....                                              10
                 EPA Does Not Have a Fully Effective Process to Guide Decisions to
                   Deobligate Unliquidated or Use Special Account Funds ..............................                                13
                       Portions of $174 Million in Unliquidated Superfund
                         Obligations Might Be Available............................................................                   13
                       Portions of $465 Million in Special Account Funds Are Potentially
                         Transferable to the Trust Fund ...........................................................                   14
                 Conclusions....................................................................................................      16
                 Recommendations .........................................................................................            17
                 Agency Response to the Draft Report and OIG Evaluation ...........................                                   18


Appendices
   A     Details on Scope and Methodology.....................................................................                        19   


   B     Definitions of Administrative and Programmatic Costs....................................                                     22   


   C     Details on Removal Activities ..............................................................................                 23   


   D     February 10, 2006 Agency Response..................................................................                          24   


   E     OIG Evaluation of Agency Response ..................................................................                         29   


   F     Distribution ............................................................................................................    35   

                                        Figures and Tables

Figure 1-1   Federal Spending for Discretionary Programs Has Decreased                    2
Figure 1-2   Expenditures Greater Than Appropriation, FY 1999 – 2003                      3
Figure 1-3   Regional and Headquarters Expenditures, FY 1999 – 2003                       4
Figure 1-4   Programmatic and Administrative Expenditures, FY 1999 – 2003                 5
Table 2-1    Superfund Carryover for FY 1999 – 2005                                       9
Figure 2-1   Status of Proposed, Final, and Deleted NPL Superfund Sites, FY 1987 – 2003   11
Figure 2-2   Change in Proposed, Final, and Deleted NPL Superfund Site Status by          12
             Region, FY 1987 – 2003
                                          Chapter 1
                                          Introduction

Purpose
                We performed this review in response to a congressional request specified in the
                conference report that accompanied H.R. 2673 (Consolidated Appropriations Act
                of 2004, page 1128). The U.S. Environmental Protection Agency (EPA) Office of
                Inspector General (OIG) was asked to evaluate Superfund expenditures and
                recommend options to increase resources directed to extramural cleanup while
                minimizing administrative costs. Extramural funds are commonly understood to
                be “cleanup funds.”

                We addressed four questions, developed in agreement with Senate and House
                Appropriations Committee staff:

                1) What have headquarters and regional Superfund expenditures been for the last
                   5 years (Fiscal Years 1999 to 2003)?
                2) How effective are the processes and criteria for determining, allocating, and
                   optimizing regional and headquarters’ Superfund administrative and support
                   resources?
                3) How effective are the processes and criteria for allocating Superfund program
                   dollars to program needs?
                4) How effective are EPA’s procedures for integrating efficiency and
                   effectiveness information into the Superfund program?

                In September 2004, we reported on the first two questions.1 This report answers
                portions of these questions.

Background
                The Comprehensive Environmental Response, Compensation, and Liability Act
                (CERCLA) established the Superfund program in 1980. Superfund is the Federal
                Government’s program to clean up the Nation’s uncontrolled hazardous waste
                sites. According to EPA, through Fiscal Year (FY) 2005, work had been
                completed at 62 percent of the highest priority sites in the Nation - those on the
                National Priorities List (NPL) - and EPA had deleted 308 sites from the NPL.
                Underscoring EPA’s commitment to the “polluter pays” principle, the Agency
                indicated it secured over $1.1 billion for FY 2005 in cleanup commitments and
                cost recoveries from the parties responsible for toxic waste sites, for a cumulative

        1
         U.S. Environmental Protection Agency, Office of Inspector General, OIG Response to Congressional
Request on Superfund Administrative Costs, Report No. 2004-S-00004, September 15, 2004.


                                                      1

                 total of over $23 billion. According to the Agency, about 70 percent of Superfund
                 cleanups are performed by responsible parties as a result of EPA’s enforcement
                 program.

                 An issue of primary and current concern in the Superfund program is the
                 sufficiency of funding for cleanups. According to the Government Accountability
                 Office (GAO), until 1995, dedicated taxes on petroleum, chemical feedstocks, and
                 corporate income provided the majority of the Superfund program’s income
                 through the Hazardous Substance Superfund Trust Fund, the account designated
                 to provide funding to these sites. However, the Trust Fund has decreased over the
                 years, to the extent that in FY 20042 and 2005, all Superfund appropriations came
                 from general tax revenue rather than the Trust Fund. The Superfund program
                 must compete for revenue along with other discretionary programs, which have
                 received decreasing portions of Federal dollars over time. As shown in Figure 1
                 1, discretionary funding decreased from 67 percent of Federal spending in 1964 to
                 39 percent in 2004, while mandatory Federal spending was more than half of all
                 Federal spending in 2004. As a result of the overall decline of the Superfund
                 budget and the identified shortfalls associated with the Superfund Trust Fund,
                 questions about the program’s efficiency and effectiveness have been asked.

                 Figure 1-1. Federal Spending for Discretionary Programs Has Decreased


                                            Federal Spending for
                                           Discretionary Programs


                           1964                                   1984                                     2004*

                              7%                                                                          7%
                                                                 13%
                        26%                                                 45%                                     39%

                                     67%                     42%                                    54%




                                   Discretionary                         Mandatory                        Net Interest

                         * Current services estimate

                         Source: Budget of the United States Government FY 2005. Office of Management and Budget


                 Source: GAO presentation, American Institute of Certified Public Accounts (AICPA) National
                 Governmental Accounting and Auditing Update, August 2004.




        2
         According to the Final Report of the Superfund Subcommittee of the National Advisory Council for
Environmental Policy and Technology, April 12, 2004.


                                                                    2

                 Superfund Appropriations

                 The Superfund program experienced an overall decline in appropriations from
                 approximately $1.367 billion3 in FY 1999 to approximately $1.265 billion in
                 FY 2003,4 a decline of about 7.5 percent.

                 Superfund Expenditures

                 As summarized in Figure 1-2, between FY 1999 - 2003, total Superfund
                 expenditures were greater than their corresponding appropriation. A key reason
                 for this is that EPA expends prior year funding to pay for current needs. Total
                 Superfund expenditures declined about 11 percent since FY 1999, down from
                 about $1.73 billion in FY 1999 to $1.55 billion in FY 2003.5 As summarized in
                 Figure 1-3, the majority of Superfund expenditures occurred in the EPA regions,
                 which averaged about 75 percent of total expenditures during FY 1999 - 2003.

                 Figure 1-2. Expenditures Greater Than Appropriation, FY 1999 – 2003
                 Constant 2003 Dollars in Millions

                    $1,800
                    $1,600
                                $362
                                                $462
                    $1,400                                 $347         $293        $284
                    $1,200
                    $1,000
                      $800
                      $600
                      $400
                      $200
                        $0
                               FY 1999     FY 2000        FY 2001      FY 2002     FY 2003

                          Total Appropriation     Expenditures Greater than Appropriation

                 Source: OIG Analysis of EPA data.




        3
          All financial data have been adjusted to constant 2003 dollars using the Gross Domestic Product Chained-
Price index.
        4
           Excludes allocations for the Agency for Toxic Substances and Disease Registry (ATSDR), National
Institute of Environmental Health Sciences (NIEHS), and the Brownfields program.
        5
          Our analysis of Superfund expenditures excludes expenses incurred by EPA OIG, ATSDR, NIEHS; does
not include any dollars appropriated to the Office of Research and Development (ORD) prior to 1998; and includes
expenditures for the Brownfields program. The Brownfields program, prior to FY 2003, was funded under the
Superfund appropriation and thus is included in the Superfund expenditure data.


                                                           3

                 Figure 1-3. Regional and Headquarters Expenditures, FY 1999 – 2003
                 Constant 2003 Dollars in Millions
                                $1,729       $1,712
                    $1,800                               $1,561                         $1,548
                                                                         $1,528
                    $1,600
                                 26%          25%
                    $1,400                                    28%          23%           23%
                    $1,200
                    $1,000
                     $800        74%          75%             72%          77%           77%
                      $600
                      $400
                      $200
                        $0
                               FY 1999      FY 2000         FY 2001      FY 2002        FY 2003

                                         Regional Expenditures        HQ Expenditures

                 Source: OIG analysis of EPA data.


                 Superfund Programmatic and Administrative Expenditures

                 Superfund programmatic expenditures are those uniquely related to programmatic
                 work, including extramural expenses, special use facilities, and items with limited
                 application or unique use.6 Superfund program managers believe that personnel-
                 related costs directly associated with site-specific cleanup activities should be
                 included in programmatic costs, although they are not.

                 Superfund administrative expenditures are generally categorized as personnel-
                 related costs and non-personnel-related costs. Personnel-related costs consist of
                 wages and benefits; non-personnel-related costs consist of rent, utilities, travel,
                 equipment, and other overhead-related costs.




        6
         We used the definitions of administrative and programmatic costs as outlined in chapter 4 of the
Administrative Control of Appropriated Funds Manual, used by EPA’s Office of the Chief Financial Officer
(OCFO). See Appendix B for definitions.


                                                       4

                 Figure 1-4. Programmatic and Administrative Expenditures, FY 1999 – 2003
                 Constant 2003 Dollars in Millions

                     $1,800     $1,712       $1,718
                                                              $1,570                  $1,582
                                                                           $1,529
                     $1,600
                                  23%          23%
                     $1,400                                    25%
                                                                             26%        28%
                     $1,200
                     $1,000
                      $800         77%          77%            76%          74%        74%
                      $600
                      $400
                      $200
                         $0
                                FY 1999       FY 2000      FY 2001         FY 2002    FY 2003

                                                Programmatic         Administrative

                 Source: OIG analysis of EPA data.7

                 As Figure 1-4 shows, administrative costs increased from about 23 percent to
                 about 28 percent, while programmatic costs decreased from about 77 percent to
                 about 74 percent from FY 1999 - 2003. During this time, programmatic
                 expenditures decreased about $171 million, or 13 percent, and administrative
                 expenditures increased about $41 million, or 11 percent. Total Superfund
                 expenditures averaged approximately 75 percent programmatic and 25 percent
                 administrative from FY 1999 to 2003.8

                 Personnel-related (Superfund staff) expenditures averaged nearly 80 percent of
                 total known administrative expenditures over FY 1999 - 2003.9 The number of
                 Superfund staff declined from 3,330 staff in 1999 to 3,088 staff in 2003. Overall,
                 non-personnel administrative costs decreased over the 5 years. This indicates that
                 the increase in administrative costs was due to increases in personnel-related
                 expenses. According to an EPA official, cost-of-living increases and other pay

        7
           Percentages and totals of programmatic and administrative expenditures in the charts, figures, and tables
in this report may not add up to 100 percent because (1) a relatively insignificant amount of expenditures were not
coded as either programmatic or administrative, resulting in an amount lower than 100 percent of total expenditures;
(2) the Agency had deductions from total expenditures, which are reflected in total expenditures so they are not
overstated, that were not coded as programmatic or administrative, so we could not deduct these amounts from
either expenditure category (resulting in programmatic and administrative expenditures of greater than 100 percent
of total expenditures); in these cases, we could not adjust programmatic and administrative expenditures.
Percentages may also not add up to 100 percent due to rounding.
        8
           The data may underestimate the true administrative cost associated with the Superfund program. Our
analysis of Superfund expenditures excludes expenses incurred by EPA OIG, ATSDR, and NIEHS. The expenditure
data do not include expenses from the Environmental Programs and Management appropriation subsidy (discussed
later in our report).
        9
        Staff data do not include staff from EPA Office of Research and Development (ORD), EPA OIG,
ATSDR, and NIEHS.


                                                         5

          and benefit increases associated with personnel appear to be the primary cause of
          the administrative cost increase. As discussed later in the report, the Office of
          Solid Waste and Emergency Response (OSWER), the office accountable for
          achieving Superfund goals, has limited control over these costs because it does
          not manage all Superfund personnel functions.

          Prior Superfund Studies

          Since 1995, over 120 internal and external audits, reviews, and evaluations about
          the Superfund program have been conducted by independent groups, including
          the EPA OIG, the GAO, the National Academy of Public Administration,
          Resources for the Future, and the National Advisory Council on Environmental
          Policy and Technology. In April 2004, EPA released an internal study,
          SUPERFUND: Building on the Past, Looking to the Future, commonly known as
          the 120-Day Study that made over 100 recommendations for improving
          Superfund. We found the 120-Day Study findings informative and reference
          some of its recommendations in this report.

Scope and Methodology
          We performed this evaluation from February 2004 to January 2005, generally in
          accordance with Government Auditing Standards issued by the Comptroller
          General of the United States (limitations and a more extensive discussion of this
          section are in Appendix A). Subsequent to completing our fieldwork, we received
          limited updates on unliquidated obligations, special accounts, ORD expenditures,
          site-specific payroll charging information, and Superfund carryover.

Agency Response to the Draft Report and OIG Evaluation
          We considered and reviewed the Agency’s comments we received in August
          2005, met with the Agency in October 2005, and received additional comments in
          February 2006, after the Agency indicated it was developing an implementation
          plan to respond to our recommendations. In its February 2006 response, the
          Agency indicated nonconcurrence with some of the recommendations. We met
          with the Agency to discuss its nonconcurrence with some of the
          recommendations. Where appropriate, we incorporated the Agency’s comments
          into the final report.




                                           6

                                Chapter 2
   Obstacles Impact EPA’s Ability to Efficiently and
      Effectively Manage Superfund Resources

          Several organizational and accounting obstacles prevented EPA from efficiently
          and effectively managing the Superfund program for performance and adequately
          accounting for Superfund resources. For example, EPA has been unable to
          allocate and manage Superfund resources for cleanup as efficiently and
          effectively as possible because of disagreements about how to classify Superfund
          administrative expenses, decentralized Superfund management, incomplete
          information on program costs, an outdated process for allocating resources, and
          continuing to maintain unliquidated Superfund obligations and money in special
          accounts, as a “hedge against tough financial times.”

Superfund Managers Disagreed About How to Classify Administrative
Expenses
          While Congress asked us to review Superfund administrative expenses to identify
          economies to enable EPA to allocate additional funds to cleanup, we found that
          Superfund managers did not agree on the definition of these costs. EPA did not
          account for funds in a manner that allows managers to easily compare Superfund
          cleanup costs with Superfund program support costs. Similarly, EPA’s
          accounting system did not provide reports that connect the costs of program
          support with the activities supporting the program. These factors prevent the
          Agency from accurately determining its administrative costs and needs, and
          effectively managing them.

          The Office of the Chief Financial Officer (OCFO), which manages the Agency’s
          accounting system, defined administrative costs differently than OSWER, which
          manages most aspects of the Superfund cleanup and response program. OCFO
          uses a budgetary definition of administrative costs that includes all payroll
          expenses, even though some activities such as direct oversight of site cleanup may
          not be considered administrative. OSWER does not agree that all personnel-
          related costs should be considered administrative, noting that those directly
          associated with site-specific work should be categorized as non-administrative, or
          programmatic.

          By analyzing activities and related costs, EPA could identify opportunities to shift
          funds from support to cleanup activities. To maximize costs devoted to cleanup,
          EPA would need to categorize costs for Superfund-related activities and
          determine appropriate funding levels for the activities. An approach, called
          activity based costing, would allow managers to assess the cost/benefit of specific
          activities and take steps to reduce costs where necessary.


                                           7

          EPA’s 120-Day Study identified the need for improvements in site-specific cost
          accounting to improve Superfund program management and benefit cost recovery
          efforts. This improvement could help reduce overhead costs and provide more
          detailed information on actual site costs.

Decentralized Management of Superfund Resources Limits Ability to
Manage Resources to Benefit Cleanup
          EPA’s decentralized management of Superfund contributes to allocation and
          resource management problems. EPA spreads its Superfund appropriation across
          a variety of offices that provide the program’s administrative support and cleanup
          activities, limiting EPA’s opportunities to more effectively manage Superfund
          resources for cleanup and impeding close alignment and integration among EPA
          offices that receive some portion of the Superfund appropriation. The Agency’s
          own internal review of the Superfund program (120-Day Study) identified this
          problem. It found that

             With resources spread broadly across multiple EPA headquarters offices and
             the Regions, efforts end up less focused and less mutually supportive because
             different parts of the organization see themselves as beholden to their own
             program areas, rather than responsible for achieving overarching
             programmatic goals and mandates.

          As a result of this decentralized management of Superfund administrative and
          programmatic resources, no single program office had, or perceived it had, overall
          responsibility and authority for these resources. For example, EPA allocates
          Superfund response and cleanup resources to OSWER, research and development
          funding to ORD, and enforcement funding to the Office of Enforcement and
          Compliance Assurance (OECA). Superfund management and support resources
          have been allocated to several organizations, but largely to the Office of
          Administration and Resources Management (OARM) and OCFO.

          Decentralized management of Superfund resources virtually eliminated any
          integrated analysis of Superfund program costs across these offices. It also
          impacted EPA’s ability to redirect some administrative resources to Superfund
          cleanups. For example, personnel, compensation, and benefits funding is
          managed by each EPA program office. In FY 2003, annual personnel,
          compensation, and benefits carryover from the Superfund Management and
          Support, Response, and Enforcement function was approximately $10 million (the
          carryover amount varies each year). However, EPA did not reprogram
          approximately $6 million of the 2003 carryover, and lost an opportunity to
          reallocate these funds to Superfund cleanups. EPA continues to lose opportunities




                                           8

                  because its policy is to return Superfund carryover to the offices or functions to
                  which it was originally appropriated. 10

                  Consequently, when Superfund support or enforcement payroll carryover was
                  available, as it was in FY 1999 - 2005, EPA did not reprogram it to alternative
                  program functions with greater needs, such as Superfund cleanup. Annual
                  amounts were:

                  Table 2-1. Superfund Carryover for FY 1999 – 2005

                                                   Carryover11
                                  Fiscal Year      (in millions)
                                     1999             $103.1
                                     2000              $57.3
                                     2001              $53.9
                                     2002              $50.8
                                     2003             $47.612
                                     2004             $27.613
                                     2005              $38.0


                  The data in Table 2.1 demonstrate a trend of carryover funds in the Superfund
                  program. Because the program has a policy of returning all carryover funds to
                  their original functions, and not reprogramming Superfund funds, the data suggest
                  that, in addition to the known case for FY 2003, EPA has potentially lost other
                  opportunities to reprogram some carryover funds to priority areas and needs.
                  The carryover data we received from the Agency did not allow us to determine
                  the amounts attributable to specific Superfund functions (e.g., enforcement,
                  research, cleanup). In addition, we were unable to determine whether carryover
                  returned to its original function (per EPA policy) directly benefited the cleanup
                  function in some way.



         10
            In FY 1997 and 1998, Congress mandated that all Superfund carryover, regardless of the function, be
reallocated to Superfund remedial work. Except when directed to do so by Congress, OCFO has maintained that
reallocating among function caps is not consistent with its policies. For FY 2006, Congress did not designate offices
or function caps in the Superfund appropriation.
         11
            These amounts include funds that were deobligated during a fiscal year and were not obligated again by
the end of the same fiscal year.
         12
            The amount of personnel, compensation, and benefits carryover cited in the example above is included
in this amount.
         13
           The carryover amount provided by the Agency for FY 2004 was $75.2 million because the carryover
from FY 2003 was not issued until the Trust Fund balance was sufficient to support it. To prevent duplication, we
deducted the FY 2003 carryover from the amount provided by the Agency.



                                                         9

Incomplete Information on Superfund Costs Prevents Accurate
Estimates of Program Needs
                  EPA’s lack of an accurate estimate of Superfund administrative costs prevents the
                  Agency from accurately estimating Superfund program needs. The Agency’s
                  Environmental Programs and Management (EPM) appropriation pays for a wide
                  range of EPA costs, including those that cannot be attributed to a specific program
                  or appropriation. In part, these costs included overhead such as facilities,
                  computers, information technology support, health and safety, and training. The
                  cumulative amount of EPM funds that subsidized Superfund activities, as reported
                  in the Agency’s FY 1999 - 2003 annual reports, was approximately $360 million
                  dollars. EPA did not record the EPM subsidy to Superfund in the Agency’s
                  accounting system for Superfund or for any of the other appropriations, and
                  allocated the EPM subsidy only for financial statement purposes. Full costing for
                  Superfund should include those costs subsidized by the EPM appropriation.

Outdated EPA Workload Model Used to Distribute Superfund
Resources
                  EPA allocated Superfund personnel and resources based on an outdated workload
                  model,14 which can result in potential misallocations. The Agency acknowledged
                  that the model is “massively out of date” and it took them over a year to provide
                  us with documentation on the model.15 Because the Superfund program changed
                  substantially since the model was last updated, EPA could not demonstrate that
                  current personnel or other administrative activity allocations are reasonable,
                  efficient, and commensurate with current program requirements.

                  Legislation, agency responsibilities, and the status of sites changed cleanup
                  requirements and Superfund during the last 16 years. For example, according to
                  the Agency, EPA created the Brownfields program, which Congress later
                  removed from the Superfund program and now funds separately. Also, the
                  Agency stated that Presidential Decision Directives have added Homeland
                  Security responsibilities. EPA’s “enforcement first” policy has impacted the
                  program by limiting the amount of time spent litigating cases and saving the
                  resources of the Trust Fund for responding to “orphan” sites where no viable
                  responsible party can be found. Importantly, the status of proposed, final, and
                  deleted NPL sites changed. As shown in Figure 2-1, a majority of the sites are
                  “construction complete.”

         14
            According to EPA, it has discontinued its effort to collect, evaluate, and run model outputs on an annual
basis, and instead has dealt with annual marginal changes to personnel ceilings according to program priorities.
         15
          EPA did not provide important workload model information in a timely manner. We requested a copy of
the workload model in July 2004 but were told that EPA no longer had any documents related to the workload
models. We did not fully assess the workload model documents EPA provided due to the late submission of the
documents and our timeframes. EPA agrees with our recommendation to conduct a workforce assessment of
headquarters and regional Superfund staff levels and allocations.


                                                         10

Figure 2-1. Status of Proposed, Final, and Deleted NPL Superfund
Sites, FY 1987 – 2003

  1800
  1600                                                            Deleted/Referred to
                                                                  Another Authority
  1400                                                            Construction Complete
  1200
                                                                  Construction Underway
  1000
   800                                                            Design Underway

   600
                                                                  Remedy Selected
   400
                                                                  Study Underway
   200
     0                                                            Remedial Assessment
                                                                  Not Begun
     87

            89

                   91

                          93

                                 95

                                        97

                                               99

                                                      01

                                                             03
   FY

          FY

                 FY

                        FY

                               FY

                                      FY

                                             FY

                                                    FY

                                                           FY
As reported in a March 2004 EPA analysis of the regional workforce, the current
regional workforce distribution was heavily influenced by the historic number of
Superfund sites per region. However, as shown in Figure 2-2, the number of
proposed, final, and deleted NPL sites managed by each region changed between
FY 1987 and FY 2003. For example, in FY 1987, Region 4 had 107 sites; by
FY 2003 that number had almost doubled to 209 sites. The distribution of site
activity within stages of the Superfund process also changed. For example, in
FY 1987, the majority of sites in Region 5 were classified as “study underway” or
“remedial assessment not begun,” whereas in FY 2003, a majority of sites were
“construction complete.”




                                        11

                                              Figure 2-2. Change in Proposed, Final, and Deleted NPL Superfund Site Status by
                                              Region, FY 1987 – 2003
                                               1987 - All Regions                                                                       2003 - All Regions

                             300                                                                                  300                                            Deleted/Referred to Another
                                                                                                                                                                 Authority
 Number of Superfund Sites




                                                                                      Number of Superfund Sites
                             250                                                                                  250                                            Construction Complete

                             200                                                                                  200
                                                                                                                                                                 Construction Underway
                             150                                                                                  150
                                                                                                                                                                 Design Underway
                             100                                                                                  100
                                                                                                                                                                 Remedy Selected
                             50                                                                                   50
                                                                                                                                                                 Study Underway
                              0                                                                                    0
                                   1      2   3    4   5    6       7   8   9   10                                      1   2   3   4   5   6     7   8   9 10   Remedial Assessment Not
                                                       Regions                                                                          Regions                  Begun




                                              Important differences exist in the nature of the current workload across regions,
                                              emphasizing the need for accurate resource allocation. In our survey of EPA
                                              regions, 9 of 10 EPA regions indicated they redirect some portion of their
                                              Superfund personnel outside Superfund offices to other regional activities, such as
                                              community involvement, public affairs, and the Regional Administrator’s office.16
                                              We identified eight staff that charged 100 percent of their time to Superfund, but
                                              devoted some time to work as project officers for EPA’s Brownfields program in
                                              FY 2003 - 2004.

                                              Regional workload can differ in areas such as managing megasites (sites
                                              estimated to cost over $50 million to clean up) and Superfund removals. For
                                              example, as of the third quarter, FY 2004, Region 2 managed 24 megasites and
                                              Region 9 managed 25, while Region 7 managed 5. Megasites can differ from
                                              nonmegasites in that they can require more resources over the long term to
                                              address complexities associated with developing remedies and cleaning up
                                              contamination that can cover many square miles, involve multiple communities,
                                              responsible parties, Indian Tribes, or States.

                                              During FY 1999 - 2003, while the initial annual allocation of Superfund removal
                                              funding to the regions was mostly constant, the actual workload, or need, was not
                                              (see Appendix C for detailed information). Regions adapted to the fixed
                                              allocation system by managing their workload according to the funding received,
                                              which means some removal work may have gone unaddressed. For example, in
                                              FY 2004, Regions 2 and 3 reported backlogs of approximately 12 and 25 removal
                                              assessments, respectively.17 According to EPA, it began an effort to redefine the




                                   16
                                        We did not verify whether these activities were related to Superfund or not.
                                   17
            EPA attempted to alleviate removal funding shortages by keeping a national pool of additional removal
funds that regions can request. In FY 2004, OSWER provided approximately $3.75 million from this pool to fund
removal needs at four sites. However, the amount in the pool was less than the amount for the removal actions that
the regions requested.


                                                                                      12

                  baseline activities of the Superfund program18 and is reviewing the allocation
                  methodology for Superfund removal activities.19

EPA Does Not Have a Fully Effective Process to Guide Decisions to
Deobligate Unliquidated Funds or Use Special Account Funds
                  EPA maintains unliquidated obligations for longer than 2 years, and appears to
                  lack information that will allow it to proactively and timely manage and account
                  for Superfund obligations. Lacking a fully effective approach for deobligating
                  unliquidated Superfund obligations, the Agency was unable to state when and
                  how much will be available. However, in response to our requests, the Agency is
                  analyzing the unliquidated obligations. EPA has reclassified (or transferred)
                  some special account funds from sites that were not construction complete, while
                  hesitating to transfer funds to the Trust Fund from sites where construction was
                  complete.

                  Portions of $174 Million in Unliquidated Superfund Obligations Might
                  Be Available

                  Between FY 2001 - 2005 (June), EPA deobligated approximately $685 million;
                  portions of $174 million more remain available to deobligate. While EPA has
                  taken significant steps in deobligating Superfund resources, the Agency may not
                  have been timely in its review or action on the remaining $174 million in
                  obligations; other studies also found problems with EPA’s management of
                  unspent funds like these. As the Agency works to better manage and account for
                  Superfund resources, timely and fully effective processes are key for identifying
                  valid Superfund obligations that could be made available for cleanup actions.

                  While EPA indicated that funds should be expended within 2 years of obligation,
                  the $174 million represented unexpended obligations initiated from FY 1989
                  through FY 2002 minus funds reserved for mixed funding accounts and funds
                  held pending an OIG review. EPA told us that not all of the $174 million may be
                  immediately available, or available at all, to deobligate, due to various issues such
                  as additional unplanned work, late billing invoices, and litigation issues. In
                  response to the draft report, the Agency is analyzing how much of the $174
                  million might be available; it has thus far concluded that $38 million might be




         18
           The Agency will use this information to evaluate whether significant shifts in resource allocations are
necessary, and whether modeling or some other approach will be helpful to make resource allocation decisions.
         19
            Determining needs and priorities for Superfund removal funding may never achieve precision because
removals can be unpredictable. However, reasonable factors to consider in estimating removal needs include:
regional or State capacity to conduct removal actions, nature of prior removal actions in regions/States, nature of
regulated facilities and businesses in regions and States, and type and volume of hazardous material transportation
that occurs in regions and States.


                                                         13

                 available to deobligate. The Agency is continuing to explore opportunities to
                 deobligate additional funds.20

                 EPA’s management of unspent funds like these was reported in the Agency’s 120
                 Day Study and prior EPA OIG reports. According to the 120-Day Study,
                 closeouts of completed contracts and interagency agreements continue to be
                 delayed, resulting in EPA not deobligating funds promptly. The study indicated
                 that some regions appear to be holding money "as a hedge against tough financial
                 times." Other research reported that regions are obligating funds for Response
                 Action Contracts and Army Corps of Engineers interagency agreements in excess
                 of 2-year future funding needs (the amount determined prudent for future
                 funding). Also, expenditure and obligation data showed long time lags between
                 obligating and expending funds, which indicates that EPA is not maximizing its
                 resource use.

                 Portions of $465 Million in Special Account Funds Are Potentially
                 Transferable to the Trust Fund

                 While special accounts are a useful tool that can help the Agency negotiate
                 settlements with responsible parties, EPA may be losing the opportunity to better
                 use portions of these funds because the Agency has been slow to identify
                 potentially available funds and implement protocols for the management of
                 special accounts. By maintaining past costs recovered in special accounts and by
                 maintaining funds in accounts where construction is complete, EPA is not
                 maximizing the use of special account funds. The Agency acknowledged that no
                 systematic approach exists for capturing and reporting decisions about using
                 special accounts, or for determining when special account resources may be
                 returned to the Trust Fund. As with unliquidated Superfund obligations, EPA’s
                 120-Day Study found that funds in special accounts are potentially being held “as
                 a hedge against tough financial times.” Agency officials are working to improve
                 guidance on special accounts.

                 Under the terms of settlement agreements, special accounts are used to collect
                 funds from responsible parties (RPs) to pay cleanup costs at specific Superfund
                 sites. Special accounts can hold funds when RPs who are unable or unwilling to
                 perform a response action make “cash out” payments to address their past and
                 future liability at the site. As of September 2005, approximately $465 million in
                 special accounts was potentially available for transfer to the Trust Fund, though
                 not all of these funds may be available immediately. The majority of these funds




        20
           The Agency’s analysis of amounts available for deobligation is based on 80 percent of the total amount
analyzed, or $133 million.


                                                        14

                  ($390 million21) are past costs reimbursed to EPA while the remainder ($75
                  million22) are funds associated with sites that are “construction complete.”

                  In the past, the $390 million in past costs in special accounts would have been
                  deposited into the Trust Fund and become available for congressional
                  appropriation. However, in 2000, EPA’s Office of Site Remediation Enforcement
                  (OSRE) issued a guidance memorandum stating that past cost recoveries could be
                  deposited into special accounts using model language in the settlement agreement.
                  Importantly, the OSRE memo also reported that EPA had the option of stating in
                  agreements that past costs recovered could also be transferred by EPA to the
                  Superfund Trust Fund. Circumstances do exist under which special account funds
                  cannot be transferred to the Trust Fund, such as those created by terms of
                  settlement agreements.

                  Through guidance, EPA has established priorities for the use of special account
                  funds. The first priority is to use the funds as a settlement incentive for
                  responsible parties; second is to conduct EPA-led cleanups; third is to apply the
                  funds toward previous EPA expenditures at a site, which will allow funds
                  previously reserved for the site to be “deobligated” for use at other sites (also
                  known as reclassification); and fourth is to replenish the Trust Fund. EPA has
                  made limited use of the option to reclassify special account funds; it has
                  reclassified approximately $23 million (out of approximately $536 million in past
                  costs special accounts) to other sites as of September 30, 2005. EPA has also
                  expressed hesitancy to transfer funds from sites that are “construction complete”
                  due to concerns about unexpected future costs.

                  EPA is evaluating its options to conduct further transfers of special account funds
                  to the Trust Fund. The 120-Day Study recommended that EPA revisit its special
                  account guidance to determine whether additional clarification is necessary to
                  maximize using special account dollars and free up money for current work. The
                  study reported that:

                      ...in some cases special account dollars remain unobligated or unspent, even
                      after a significant time beyond when work at a site has been completed. At
                      present, there does not appear to be particular attention or pressure to
                      identify and take the necessary steps to mobilize these funds to help complete
                      priority work.


         21
            The past costs potentially available for transfer were estimated by comparing, for each account, the past
costs available (receipts minus disbursements) to the total available balance. The total available balance represented
the amounts received, plus interest minus disbursements and open obligations. It also includes Agency data on
special account funds promised to RPs (about $25.5 million) and a $14.6 million transfer to another special account.
         22
           The amount potentially available for transfer to the Trust Fund for “construction complete” sites was
estimated by subtracting the past costs available from the available balance to avoid duplication of reporting
potential amounts available for transfer to the Trust Fund. It also reflects Agency data on special account funds
promised to RPs less transfers to other accounts.


                                                         15

         Agency officials have recognized the need to nationally manage special accounts
         and, in August 2005, asked the regions to provide estimates of future needs for
         each special account. Headquarters has received the regional estimates, is
         analyzing them, and will consider them in future decisions regarding special
         accounts.

Conclusions
         Because EPA has dispersed Superfund management and resources, no single EPA
         office, including the office accountable for Superfund cleanup goals (OSWER)
         has full responsibility or control over EPA’s Superfund appropriation. Managing
         the Superfund appropriation across offices limits EPA’s control and visibility of
         Superfund resources and has impacted EPA’s ability to maximize resource
         utilization and cleanup activities.

         Additional obstacles to the Agency’s ability to direct all potentially underutilized
         resources to cleanups and better manage Superfund administrative and support
         resources include

         •	 not managing Superfund administrative costs, unliquidated obligations, and/or
            special accounts to maximize funds devoted to cleanup activities; and
         •	 using an outdated workload model to allocate funds.

         Importantly, because many obstacles stem from not managing administrative
         costs at an activity-level, EPA

         •	 lacks information on how administrative staff spend their time and contribute
            to cleanup,
         •	 is losing opportunities to be more efficient, and
         •	 is losing opportunities to assess the workload and distribute funds as needed,
            because it does not know how much the different activities cost.

         These limitations in EPA’s managing its Superfund resources are also significant
         internal control weaknesses requiring corrective action because they impact
         EPA’s ability to fully account for its funds.

         Given the increasing demands on shrinking discretionary funding, the current
         system of managing resources should no longer be considered an option. The
         Agency’s ability to optimize its Superfund resources for cleanups will depend on
         reducing organizational impediments to resource management, realigning its
         staffing commensurate with its workload, fully accounting for its Superfund
         administrative burden, making a long-term commitment to comprehensively
         manage the Agency’s administrative and support resources, and using all
         available funds. Closer alignment and integration of offices that receive
         Superfund resources could prevent lost opportunities in applying underutilized
         funds to cleanup, optimizing resources, and gaining efficiencies. Flexibility to


                                          16

         reprogram Superfund resources can help overcome the current management and
         financial obstacles and facilitate more effective and efficient achievement of
         Superfund cleanup goals.

         EPA is attempting to address some of the limitations associated with managing its
         Superfund resources by creating a Superfund Board of Directors. The Board is
         functioning and is planned to be in place for about 2 years, after which time it will
         evaluate the need for the Board to continue.

Recommendations
         We identified opportunities for congressional and EPA action to improve
         Superfund resources management.

                               For Congressional Action
  No.                                     Recommendations

  2-1   Reprogramming Carryover: Similar to actions Congress took in FY 1997 and
        1998, Congress could direct EPA to monitor all Superfund carryover before each
        fiscal year expires, and demonstrate how reprogrammed or non-reprogrammed
        Superfund carryover directly benefits Superfund response and cleanup activities.
        When implemented, this recommendation supersedes recommendation 2-4.

                                    For EPA Action
  No.                                     Recommendations

  2-2   Accountable Entity: EPA offices should more closely align themselves in support
        of an accountable entity (e.g., a Board, a National Program Manager) to effectively
        allocate and manage Superfund resources across the Agency according to the
        program’s demonstrated needs and goals.
  2-3   Accounting Definitions: EPA should agree to define costs in a manner that
        supports management decisionmaking and improve their accounting of such
        resources to maximize achieving program goals.
  2-4   Reprogramming Carryover: EPA should monitor all Superfund carryover before
        each fiscal year expires, evaluate the need to reprogram carryover for extramural
        cleanup, and reprogram as appropriate (with approval from Congress as
        appropriate), so that EPA can ensure that funding is strategically aligned to meet
        the highest priority needs.
  2-5   Determining Superfund Resource Needs and Allocations: EPA should conduct
        a workforce assessment and/or develop a workload model, comprehensively re
        evaluate regional and headquarters Superfund personnel levels and allocations, and
        develop and communicate a schedule to regularly evaluate Superfund workload
        models. Superfund removal needs and current allocations should be reviewed.
        Consideration of factors including regional/State capacity to conduct removals,
        nature of prior removal actions in regions/States, nature of regulated
        businesses/activities in regions/States, and the type or volume of hazardous



                                          17

         material transport that occurs in regions/States may assist need or allocation
         decisions.
   2-6   Unliquidated Obligations: EPA should deobligate the $38 million it has
         identified. EPA should also continue to review and deobligate unliquidated
         obligations, as appropriate. EPA should set up a process to ensure that funding is
         deobligated more quickly than we found in the current system. Such a system
         would include: developing management reports and performance measures that
         identify unspent obligations, along with the status of contracts, grants, and
         interagency agreements; and reviewing contracting and invoicing procedures to
         determine whether the time lag associated with the expending of funds can be
         decreased.
   2-7   Special Accounts: As of September 2005, approximately $465 million in special
         accounts was potentially available for reallocation. EPA should timely review
         special account dollars and set up a formal process and schedule to ensure special
         account funds are used consistently according to the hierarchy specified in its
         guidance. This can include (1) using the funds as a settlement incentive for
         responsible parties; (2) conducting EPA-led cleanups; (3) applying the funds
         toward previous EPA expenditures at a site, which will allow funds previously
         reserved for the site to be “deobligated” for use at other sites (also known as
         reclassification); and (4) replenishing the Trust Fund.
   2-8   Internal Controls: EPA should declare its accounting for administrative and
         supporting activities, and its lack of a current workload model, as internal control
         weaknesses.



Agency Response to the Draft Report and OIG Evaluation
          We met with the Agency in October 2005 to discuss their written comments, and
          received additional comments in February 2006, after the Agency indicated it was
          developing an implementation plan to respond to our recommendations. In its
          February 2006 written comments, the Agency nonconcurred with
          recommendations 2-6 and 2-7. The Agency also made comments on findings, and
          we made changes as appropriate.




                                           18

                                                                                                  Appendix A

                    Details on Scope and Methodology

To analyze Superfund expenditure data, we extracted data from EPA’s Integrated Financial
Management System (herein referred to as EPA’s accounting system), and adjusted it to constant
2003 dollars using the Gross Domestic Product Chained-Price Index. We analyzed trends in
Superfund expenditures according to their administrative and programmatic components.
Because the Agency’s accounting system does not track transactions at the activity level
consistent with the definition of administrative and programmatic costs preferred by OSWER,23
we used the official EPA definition of administrative and programmatic expenditures.

Due to data quality concerns, we excluded ORD expenditure data from the draft report. ORD
had concerns about the exclusion and requested the opportunity to submit new data. Subsequent
to issuing the draft report, ORD provided additional expenditure data, which we analyzed and
include in the final report. Also, the EPA OIG receives a portion of the Superfund appropriation
for program operations and reviews. Our analysis did not include funds that the OIG received or
expended.

In evaluating the effectiveness of EPA’s process for managing its Superfund administrative
costs, we focused on the personnel- and non-personnel-related components of those costs. We
considered how EPA used the workload model to manage the personnel-related costs, which
compose the majority of administrative costs. Early in our review, we learned that significant
limitations existed in information available on these costs and EPA’s managing them. As a
result, we focused on evaluating how the limitations we discovered affected the Agency’s ability
to effectively manage its administrative costs. Also, we surveyed EPA’s regions regarding how
they allocated Superfund administrative and support costs. We surveyed Regions 3 and 5 to
identify the estimated actual work activities of staff who charge to Superfund, and compared the
results from Regions 3 and 5 to time-charging data supplied by OCFO for FY 2003. We also
included data collected from a separate OIG evaluation of Brownfields resources.

In evaluating the effectiveness of EPA’s process for managing its Superfund programmatic costs,
we reviewed programmatic expenditures that are made pursuant to achieving the human health
and environmental protection goals of the cleanup program (e.g., activities supported by
Superfund remedial, removal, and pipeline dollars, which compose a majority of the “Superfund
Response/Cleanup Actions” portion of the FY 2003 Superfund appropriation). Further, we
reviewed prior internal and external studies that had shown that programmatic activities, if
improved, could result in allocating more resources to the cleanup program, such as deobligation
processes and managing Superfund Special Accounts.

        23
            EPA’s Office of the Chief Financial Officer (OCFO) categorizes all Full-Time Equivalent (FTE) costs as
administrative. OSWER officials do not fully agree with this definition, because they believe certain personnel
costs are programmatic. For example, according to OSWER, work conducted by remedial project managers and on-
scene coordinators is specifically site-related and thus programmatic. However, although the Agency can identify
site-specific and non-site specific costs, these do not necessarily indicate administrative and programmatic costs
because the Agency indicates that some site-specific activities are administrative.


                                                       19 

We identified the human health and environmental protection goals of the Superfund program in
EPA Strategic Plan Goal 3, Objective 3.224 and related performance measures. To help achieve
the goals, EPA allocates dollars to Superfund removal activities, Superfund remedial activities,
and Superfund pipeline activities25 using a specific “Advice of Allowance” (AOA) for each
category of activity. We identified and reviewed the AOA funding process at headquarters and
the allocating process at the EPA regional level (Regions 2 and 3).

We considered over 120 studies about the Superfund program conducted by external
organizations since 1995, including EPA OIG, GAO, Resources for the Future, the Superfund
Subcommittee of the National Advisory Council for Environmental Policy and Technology, and
internal EPA studies, including the 120-Day Study. We also obtained internal policy memos,
guidance, and draft action plans from EPA headquarters and regional officials.

Limitations

We complied with Government Auditing Standards, with limitations as follows:

        (1)	     We relied on EPA’s new accounting system (the Integrated Financial
                 Management System, or IFMS), as the primary system for determining Superfund
                 expenditures. An OIG report has indicated weak system controls.26 We reported
                 that

                 …a general breakdown of security controls…could undermine the integrity of
                 IFMS software libraries and financial system data. Duties were not adequately
                 segregated, individuals used an inappropriate ID or continued to have system
                 access after no longer needing it, and contractor personnel were granted access
                 to IFMS without a successful background security check. Numerous
                 accountability and contractual issues contributed to this, including OCFO not
                 having a system for identifying employee responsibilities related to IFMS
                 security, and management not performing a risk assessment of IFMS’s general
                 support system. As a result…[there was] a high risk that system programmers
                 could make unauthorized or unapproved changes to system software and data
                 used for EPA’s accounting and financial reporting.


        24
            In the FY 2003 – 2008 EPA Strategic Plan: Directions for the Future, EPA Strategic Goal 3, Objective
3.2, says “control the risk to human health and the environment…by cleaning up and restoring contaminated sties or
properties to appropriate levels,” p. 64, September 30, 2003.
        25
            Removal activities include removal actions (such as emergency or time-sensitive cleanup actions).
Remedial activities include long-term cleanup actions and other cleanup actions. Pipeline activities include
preconstruction activities such as remedial investigation/feasibility study, selecting the remedy, designing the
construction work, community involvement activities, records management, and State program development.
         26
            U.S. Environmental Protection Agency, Office of Inspector General, EPA Needs to Improve Change
Controls for Integrated Financial Management System, Report No. 2004-P-00026, August 24, 2004. Though this
report was closed out by the OIG in May 2005, the findings were relevant for the period of our review.



                                                        20 

       (2)	    We did not test internal controls.

       (3)	    We relied on data gathered by third parties, such as Resources for the Future, but
               did not test the data it used to reach its conclusions.

       (4)	    We did not test the accuracy of data from EPA’s Comprehensive Environmental
               Response, Compensation, and Liability Act Information System (CERCLIS).

Due to limited time and resources, we did not evaluate every option to improve Superfund
program management. We could not determine overall savings for all recommended options,
nor the potential investments that may be required to implement them. We conducted a limited
analysis for potential fraud in the Superfund program. These limitations could have resulted in
decreased reliability of the data and findings reported.

We were limited in our ability to both identify options for redirecting more money to extramural
cleanup while also minimizing administrative costs. IFMS does not provide detailed activity-
level data for administrative costs nor could we timely estimate administrative costs. Therefore,
we were limited in our ability to recommend options that both minimized these costs and at the
same time provided more dollars for cleanup.




                                                21 

                                                                                                  Appendix B

Definitions of Administrative and Programmatic Costs

We used OCFO’s definitions of administrative and programmatic costs as cited in chapter 4 of
the Administrative Control of Appropriated Funds Manual.


Administrative Costs are:
Staff-                 Include all payroll27 and items for groups of employees, such as rent for space and
Related                consumable office supplies that would not be incurred if the Agency did not have a
                       workforce.
Support-               Include all of the Agency’s major support contracts for general-use facilities,
Related                maintenance, etc. Also include costs associated with Program Office management
                       staff activities, administration, and management.
Individual-            Include personal desktop office equipment and general staff training (as opposed to
Related                technical program-specific training) that provides knowledge that can be utilized by
                       the employee upon leaving present position.
Overhead-              Include management and administrative functions that all government and business
Related                organizations have and which are not related to environmentally-mandated
                       programs.



Programmatic Costs are:
Environmental          Include costs specifically driven by environmental statute and program activities
Mission-               rather than in-house office staff involved with programs. Regulation development
Related                and water quality monitoring activities are examples.
Acquisition or         Include items historically termed as “extramural” that are directly related to activities
Assistance-            outlined by environmental statute and are traditionally obligated through
Related                contracts/interagency agreements or grants/cooperative agreements.
Field-                 Include program activities such as hazardous waste cleanup, environmental
Related                emergencies, field sampling, and testing and monitoring, etc.
Special-Use            Include infrastructure operating costs (rent, utilities, etc.) associated with dedicated
Facility-Related       single-purpose special use facilities, including regional Emission Standards Division
                       labs.
Unique and             Include cost of items with limited application or unique use for specific programs that
Limited Use-           have no general use elsewhere. Examples would include cost recovery data
Related                collection and enforcement efforts unique to Superfund.




        27
           Chapter 4 of the Administrative Control of Appropriated Funds Manual does not specifically address
payroll costs. It was confirmed through an OCFO official that all payroll costs are considered administrative.


                                                       22 

                                                                                  Appendix C

                             Details on Removal Activities
The following table shows removal action starts by type of action and region for FYs 1999-2003.

                                         FY 1999        FY 2000    FY 2001    FY 2002    FY 2003
Region 1     Emergency Response                     3          0          0          0         0
             Time-Critical                         18         25         13         15        18
             Non-Time-Critical                      3          2          0          1         0
               Total Starts                        24         27         13         16        18
Region 2     Emergency Response                     4          9          8          9         9
             Time-Critical                         26         25         15         13        12
             Non-Time-Critical                      1          0          0          0         0
               Total Starts                        31         34         23         22        21
Region 3     Emergency Response                    11         12          5          4         4
             Time-Critical                          4          3          8          6         4
             Non-Time-Critical                      1          2          0          0         1
             Not Coded                              0          0          0          0         4
               Total Starts                        16         17         13         10        13
Region 4     Emergency Response                    22         17         20         23        23
             Time-Critical                         26         16         15          9        10
             Non-Time-Critical                      0          0          0          0         0
               Total Starts                        48         33         35         32        33
Region 5     Emergency Response                    11         30         24         16        23
             Time-Critical                         27         13         16         32        22
             Non-Time-Critical                      3          0          1          0         0
               Total Starts                        41         43         41         48        45
Region 6     Emergency Response                     9          8          6          8         1
             Time-Critical                          7         13         14          3         3
             Non-Time-Critical                      7          1          0          1         1
             Not Coded                              0          0          0          0         2
               Total Starts                        23         22         20         12         7
Region 7     Emergency Response                    12         13         10         17        14
             Time-Critical                         14         17         13          8        10
             Non-Time-Critical                      0          1          5          2         1
               Total Starts                        26         31         28         27        25
Region 8     Emergency Response                     8          6          6          7         4
             Time-Critical                         15         17         11         10         8
             Non-Time-Critical                      1          2          2          0         1
               Total Starts                        24         25         19         17        13
Region 9     Emergency Response                     0          0          2          2         1
             Time-Critical                         12         10          9         12        13
             Non-Time-Critical                      1          0          0          0         1
               Total Starts                        13         10         11         14        15
Region 10    Emergency Response                     0          1          1          0         0
             Time-Critical                         10         11          7         11        10
             Non-Time-Critical                      0          0          0          2         0
             Not Coded                              0          5          0          0         0
               Total Starts                        10         17          8         13        10
(Source: EPA)

                                              23
                                                                                    Appendix D

                       February 10, 2006 Agency Response

MEMORANDUM

SUBJECT: 	     Inspector General’s Evaluation Report Entitled “EPA Can Better Manage
               Superfund Resources” Assignment No. 2004-000709, February 16, 2006

FROM: 	        Susan Parker Bodine
               Assistant Administrator
               Office of Solid Waste and Emergency Response

TO:    	       Nikki Tinsley
               Inspector General

Thank you for the opportunity to review the final draft report of the EPA Office of Inspector
General, “EPA Can Better Manage Superfund Resources.” We appreciate your consideration of
the comments made in the August 18, 2005, Memorandum to you from Tom Dunne, and the
revisions you made based on those comments.

We believe that your office now has a somewhat better understanding of how the Superfund
program operates. This understanding will help both OSWER and OIG as we work together to
address the challenges that face the Superfund program.

However, there remain a number of areas of apparent confusion that we would hope could be
corrected before the final draft. In particular, your staff still appears to misunderstand the
congressional appropriations process and the operations of the Superfund Trust Fund and the
benefits that accrue from Special Accounts. The Superfund Trust Fund has always been an on-
budget trust fund. Any appropriations out of the Trust Fund are subject to the same discretionary
spending caps that apply to all discretionary programs. Similarly, any deposits into the Trust
Fund can be used to off-set any federal spending, not just spending on the Superfund program.
The Trust Fund is an account, not a fund of available dollars. In addition, because Congress can
appropriate funds into, as well as out of, the Trust Fund, the level of appropriations out of the
Trust Fund has never been related to the balance of the Trust Fund.

Special Account funds are available for cleanup activities. If EPA were to deposit funds
received from potentially responsible parties (PRPs) in settlement of their liability under
CERCLA into the Trust Fund, then those funds are not available to EPA to use to support
cleanup activities unless appropriated for that purpose. Because those receipts into the Treasury
could offset any other federal spending, these funds could be used to offset spending such as
appropriations for Corps of Engineers flood control projects or Department of the Interior park
maintenance activities, instead of appropriations from the Trust Fund for EPA Superfund
cleanup activities. So, it is mistaken to suggest that depositing monies into the Trust Fund
increases funding for Superfund cleanup activities. Where EPA has another mechanism for


                                               24 

keeping and using those funds, such as Special Accounts, then transferring PRP settlement
dollars to the Trust Fund decreases funds available for cleanup activities.

In addition, the OIG appears to misunderstand the timing of the use of Special Account funds.
OIG’s methodology for calculating the amount of past costs in Special Accounts that are
potentially available for transfer is described in footnote 15 of page 13. This footnote makes
clear that OIG considers funds to be potentially available if not already disbursed or obligated.
This methodology completely ignores the fact that Superfund cleanups take place over a period
of years and Special Account funds need to be kept available for future obligation until the site is
completely cleaned up. For this reason, we do not concur with the Report’s recommendation
that “EPA transfer that portion of $465 million available special account funds to the Trust
Fund” (Recommendation 2-7).

We also are concerned about the report’s treatment of unliquidated obligations. The $174
million identified by the EPA as Superfund unexpended obligations represents a snap-shot in
time and does not reflect the current situation regarding unliquidated obligations. In fact,
analysis conducted by the Superfund program characterizing $133 million out of the $174
million indicates that $95 million is not available for deobligation and $38 million is potentially
available for deobligation. We are currently analyzing the remainder to determine if
opportunities exist to deobligate additional funds. EPA is continuing its efforts to deobligate
those funds to make available for use. Because we believe the Report misrepresents the funds
available for deobligation, we do not concur with the Report’s recommendation on this subject
(Recommendation 2-6).

While we continue to have some concern with many of the recommendations which we will
discuss in a formal written response to the report following its release, Attachment 1 provides a
list of those recommendations, including the two recommendations cited above, with which we
do not concur.

In addition, we have recommended some specific additions in wording to address some of the
key issues. These are provided in Attachment 2.

We look forward to working with the Office of Inspector General on this and other matters in the
future.

Attachments
Cc:   OSWER Office Directors
      Office of Chief Financial Officer
      Office of Site Remediation Enforcement




                                                 25 

                                          Attachment 2 

                     Suggested Language Additions in Key Areas 

Page 1: In the first paragraph under the heading “Background,” please insert “in FY 2005, for a
cumulative total of over $23 billion” at the end of the third sentence.

Page 2: In the first full paragraph, at the beginning of the fourth sentence please add: “Whether
its appropriations are from the Trust Fund or from general revenues, the”

Page 9: The discussion of the workload model implies that FTE and resource allocations are
made solely based on that model. It is also not accurate to say that the Brownfields and
Homeland Security legislation have added new requirements to the Superfund program.

Please change the first sentence of the second full paragraph to say: “EPA allocated some
Superfund personnel and resources based on an outdated workload model, which can
result in potential misallocations.”

In the second sentence of the second full paragraph, please strike “—which EPA cannot find—
“ Copies of the workload models related to Superfund are referenced in Attachment 2 A-E.

Please strike the first two sentences of the third full paragraph and replace them with the
following:

“Legislation, agency responsibilities, and the status of sites changed cleanup requirements
and Superfund during the last 16 years. For example, the Agency created the Brownfields
program, which Congress later removed from the Superfund program and now funds
separately. Presidential Decision Directives have added Homeland Security
responsibilities.”

At the end of the third full paragraph, please add the following in a footnote:

“The workload is one factor underlying FTE allocations. As its mission has evolved and
grown through legislative or administrative mandates, EPA has adapted, as necessary, by
reorganizing, reevaluating its needs, and requesting sufficient resources to meet its new and
changing responsibilities. The workload model in existence in 1989, which was used to assign
FTE among the Regions for baseline activities that are still drivers of the Superfund program
today, is not used to respond to these new priorities. Because of the disruptive effect of
shifting personnel on an annual basis to address marginal programmatic changes, EPA
discontinued its effort to collect, evaluate, and run model outputs on an annual basis, and
instead has dealt with annual marginal changes to FTE ceilings according to program
priorities. In FY 2005, EPA commenced a new effort to redefine the baseline activities of the
Superfund program, and the Agency will use this information to evaluate whether significant
shifts in resource allocations are necessary, and whether modeling or some other approach
will be helpful to make resource allocation decisions.”




                                                 26 

Page 11, in the last line replace the word “deobligated” with “reclassified”
(These funds are available for obligation, but are not obligated.)

Page 12, in the first line, replace the word “deobligate” with “reclassify”
(These funds are available for obligation, but are not obligated.)

Page 12: The $174 million in unliquidated obligations the OIG uses to demonstrate potential
deobligations is misleading. Please replace the language in footnote 14 with the following:

 “We [OIG] did not determine whether any of the $174 million was available for deobligation.
Analysis conducted by the Superfund program characterizing $133 million out of the $174
million indicates that $95 million is not available for deobligation and $38 million is
potentially available for deobligation. EPA is currently analyzing the rest of the $174 million
($41 million) to determine if opportunities exist to deobligate additional funds, and is
continuing its efforts to deobligate those funds to supplement Superfund appropriated
funding.”

Page 13: The discussion concerns managing the process for tracking special accounts and
depositing them in the Trust fund to make them available for congressional appropriation and
EPA use (3rd paragraph). This section needs a discussion of how EPA does use special accounts
to perform additional cleanups. Please add the following new paragraph after the second full
paragraph on the page:

“EPA takes advantage of its ability to reclassify (or apply) special account funds to previous
expenditures from appropriated Superfund Trust Fund dollars and make those funds
immediately available, without further appropriation, for Superfund clean-ups. There is an
established process to reclassify and then return unused special account funds to the Trust
Fund. First, EPA reclassifies (or applies) site-specific special account funds from PRPs to
previous expenditures from appropriated Trust Fund dollars. Second, any remaining, unused
special account funds are then returned to the Trust Fund essentially as a cost recovery. Cost
recoveries deposited into the Trust Fund are not available to be used at other sites. Funds
must first be appropriated by Congress to be available to the Agency to spend for Superfund
clean-ups and appropriated funds from Congress are subject to discretionary spending caps.
EPA’s policy for using special accounts maximizes the dollars available to EPA for Superfund
cleanups from both special accounts and appropriated Trust Fund resources.”




                                                27 

                                     Attachments 2 A-E

               Description of Attachments of Superfund Workload Models

Attachment 2 A: 9/27/91 Report from Superfund Resource Models Project Team

      This report provides a brief narrative of the updated 1991 Superfund workload model.

Attachment 2B: Output from FY 1992 Superfund workload model

      This collection of spreadsheets provides output of the FY 1992 Superfund workload
      model. FTE allocations for pre-remedial, remedial, removal, laboratory, and
      management and support functions are provided in the spreadsheets.

Attachment 2C: Technical Documentation for FY 1992 Superfund workload model

      This report provides the methodology for the FY 1992 Superfund workload model,
      including function of the model, activities included in the model, and pricing factors.

Attachment 2D: FY 1987 Superfund workload model

      EPA=s FY 1987 Superfund workload model outputs are described in two memos written
      in February 1987:
             a) The 2/12/87 memo provides the FY87 model output (Regional FTE
             distributions broken down by pipeline activity).
             b) The 2/25/87 memo provides methodology for the FY 1987 model.

Attachment 2E: EPA=s Superfund Federal Facilities Response Workload Model

      This attachment describes EPA=s Superfund federal facilities response workload model,
      including a description of the history of the modeling effort (workgroup activities began
      in 1999), scope of the model, and current activities.




                                               28 

                                                                                                                            Appendix E

                                  OIG Evaluation of Agency Response

The Agency’s response to the draft report (Appendix D) included comments to portions of the draft report that no longer exist in the
final version. As a result, we have included the relevant portions of Attachment 1 of the Agency’s response and our evaluation of
those comments.

       OIG Recommendation                                            Agency Comments and OIG Evaluation
2-6 Unliquidated Obligations:          Agency Comments
EPA should continue to promptly
review $174 million and deobligate     Non Concur: The Agency disagrees with the accuracy of this recommendation’s estimate of
unliquidated obligations, as           potential savings. In addition, the Agency already has a process in place for identifying money
appropriate; develop management        available for deobligation. The program has reallocated over $550M in funds over the past four
reports and performance measures       fiscal years through very aggressive efforts to review unliquidated obligations in contracts, grants,
that identify unspent obligations,     IAGs, and cooperative agreements. These efforts have yielded a large amount of deobligations
along with the status of contracts,    out of the Response budget since 2001: $165M in FY 2001, $214M in FY 2002, $101M in FY
grants, and interagency agreements;    2003, and $73M in FY 2004.
and review contracting and invoicing
procedures to determine whether the    In looking at unliquidated obligations through FY 2002, which is the basis for the OIG's $174
time lag associated with the           million number, the Agency identified only $38 million that could potentially be deobligated at
expending of funds can be              this time. The remaining funds are currently being used for ongoing cleanup, are subject to legal
decreased.                             issues, are needed for close-out purposes associated with final audits, rate adjustments and
                                       invoice reconciliations.

                                       Factual Accuracy: The Agency has concerns regarding the potential amount available for
                                       deobligation. The Agency does conduct annual reviews of unliquidated obligations of contracts,
                                       interagency agreements and grants. Reports are sent to headquarter Senior Budget Officers and
                                       Regional Assistant Regional Administrators to identify funds that are no longer needed and take
                                       the necessary action to deobligate the funds for other uses. Explanations are required when the
                                       determination is made that the funds are still necessary. This process commences in April (with



                                                                   29 

data current up through March) and a follow-up review in August is conducted to assure the
deobligations occurred. These individuals certify in October that the deobligations were
processed. Verification of these certifications occurs during Quality Assurance reviews.

There is no set pattern to determine when obligations should be liquidated. Cost reimbursable
contracts cannot be closed until an audit is performed and final indirect costs are identified and
paid. EPA may have to wait three or more years to receive audit results and final payment data.
Estimates are made of the maximum amount that can be charged once the contract is complete
and amounts in excess of the estimate are available for immediate deobligation.

No material audit issues on obligation controls were raised in the Agency’s recent annual
financial statement audits. Despite the Agency’s thorough review, the Agency agrees that it
should continue to strive to improve in this area because of the importance of deobligated funding
to the Agency’s Superfund program.

Alternative Action. The Agency will continue to assure that its report process has the ability to
create management reports for EPA and Congress. The Agency will develop financial
performance measures.

OIG Evaluation

The OIG recognizes that the $174 million may not be immediately available to the Agency.
The unliquidated obligations dollar value was provided by OSWER officials. Specifically, the
$174 million is the total amount of Superfund obligations that were obligated before FY 2003 but
not expended, minus amounts for mixed funding accounts and funds held pending an OIG
review. According to EPA, Superfund funds should be expended within 2 years of being
obligated. Therefore, based on the Agency’s own criteria, these obligations warrant review.

After the issuance of the draft report, the Agency provided us with an analysis of part of the $174
million in obligations. EPA analyzed approximately 80 percent of the $174 million and found
that approximately $38 million was potentially available for deobligation. Because this
information was provided after the issuance of the draft report, the OIG has not verified the
accuracy of the Agency’s analysis.


                            30 

                                         The OIG’s annual audit of the Agency’s financial statements, including a review of the Agency’s
                                         obligation controls, did not report any material audit issues on obligation controls. However,
                                         during the fiscal 2004 financial statement audit, we found inactive unliquidated obligations that
                                         were not deobligated in a timely manner. While the amounts reported are not material to the
                                         financial statements, when compared with the billions of dollars in outstanding obligations, the
                                         internal controls and processes that allow such obligations and deobligations to go undetected by
                                         the Agency, if not corrected, would allow for potential material misstatements in the future.

                                         We have modified the recommendation to read “EPA should deobligate the $38 million it has
                                         identified. EPA should also continue to review and deobligate unliquidated obligations, as
                                         appropriate. EPA should set up a process to ensure that funding is deobligated more quickly than
                                         we found in the current system. Such a system would include developing management reports
                                         and performance measures that identify unspent obligations, along with the status of contracts,
                                         grants, and interagency agreements; and reviewing contracting and invoicing procedures to
                                         determine whether the time lag associated with the expending of funds can be decreased.”
2-7 Special Accounts: EPA should         Agency Comments
transfer that portion of $465 million
available special account funds to the   Non Concur: EPA disagrees that transferring funds in special accounts to the Superfund Trust
Trust Fund, consistent with              Fund would result in more clean ups than if those funds remain available for use at those sites. In
settlement agreements and other          fact, EPA’s policy for using special accounts maximizes the dollars available to EPA for
authorities, so once appropriated by     Superfund cleanups from both special accounts and appropriated Trust Fund resources. Even if
Congress, these funds can be used to     funds were transferred to the Trust Fund, they are not available for cleanups unless and until
clean up priority Superfund sites.       Congress appropriates those funds to EPA.

                                         Funds in special accounts may be used as an incentive for PRPs to step up and do work,
                                         consistent with EPA’s “Enforcement First” approach, enable EPA to clean up sites, and
                                         ultimately limit the need for spending additional appropriated dollars, saving them for sites
                                         without viable or liable PRPs. When a special account is established at a site, it is part of a
                                         settlement of liability for cleanup costs associated with that site, and is the mechanism for holding
                                         the funds that will be used to clean up that site. To prematurely move that money to the Trust
                                         Fund as a cost recovery not only is inconsistent with the expectations and the legal agreements,
                                         but calls into question whether those sites would be cleaned up.


                                                                     31 

EPA places funds into special accounts if and only if those funds will be needed to fund future
cleanup activity at that Superfund site. OIG acknowledges that EPA is limited by the terms of
settlements that established the accounts (that is, EPA may be legally obligated to provide funds
to PRPs for the work), yet continues to leave the impression that a significant amount of these
funds are in fact available for transfer. EPA guidance helps prioritize use of the funds – as a
settlement incentive to get PRPs to commit to performing cleanup, funding EPA-led clean-up,
reimbursing government costs, and, finally, as the IG recommends, transfer to the Trust Fund as a
cost recovery. EPA’s policy calls for transfer of any remaining funds to the Trust Fund as a cost
recovery when all site obligations are funded and EPA’s costs are reimbursed.

The Agency has an established process to reclassify and then return unused special account funds
to the Trust Fund. First, the Agency reclassifies (or applies) site-specific special account funds
from PRPs to previous expenditures from appropriated Trust Fund dollars. Second, any
remaining, unused special account funds are then returned to the Trust Fund essentially as a cost
recovery. Cost recoveries must first be appropriated by Congress to be available to the Agency to
spend for Superfund clean-ups. As you know, appropriated funds from Congress are subject to
detailed spending constraints by appropriations sub-committee. Even if receipts (in this case cost
recoveries) increase to the Federal government, all receipts are not necessarily appropriated due
to discretionary spending constraints. (For example, in FY 2005, about $189 M in receipts were
deposited into the LUST Trust Fund, but less than 40 percent of those receipts were appropriated
by Congress to EPA in FY 2005.)

Thus, the Agency already has the ability to reclassify (or apply) special account funds to previous
expenditures from appropriated Superfund Trust Fund dollars and make those funds immediately
available, without further appropriation, for Superfund clean-ups. The Agency believes that this
is an important procedure that the Agency should fully utilize to achieve the maximum number of
Superfund clean-ups possible as allowed by legally binding settlement agreements with PRPs.

Finally, the Agency's ability to effect Superfund cleanups to protect human health and the
environment depend heavily on both appropriated funds from the Federal government and special
account funds from PRPs to fund clean-ups and minimize the backlog of clean-up projects. To
suggest that funds from one source (special accounts funds) should be redirected to another


                            32 

source (appropriated funds) to augment funding for Superfund clean-ups would not necessarily
reflect a net gain of total funding available for Superfund clean-ups or result in more clean-ups.
The Agency's primary concern is that the OIG's recommendation would ultimately decrease total
funding available for Superfund cleanups, actually resulting in fewer cleanups, due to
Congressional discretionary spending constraints on appropriated resources.

OIG Evaluation

The OIG recognizes that the $465 million in special accounts, cited in the report, and undisputed
by the Agency, may not be immediately available to the Agency. However, this does not mean
that some portions of $465 million are not available, and if the Agency abides by its own
guidance, could transfer some portion to the Trust Fund, therefore making it available for
appropriation.

In response to one of the 120-Day Study recommendations, EPA issued an April 2005
memorandum to regional officials stating that “First, with the decline in funding available for the
Superfund program, it is now more important than ever that we aggressively pursue cost recovery
claims to replenish the Superfund Trust Fund “The Fund.” These recovered funds go back into
The Fund where they can be re-appropriated and used at other sites, particularly those where there
are no viable/liable PRPs or where PRPs are recalcitrant.”

The OIG continues to believe that transferring funds (or reclassifying them as appropriate) would
result in more, not fewer, cleanups than if those funds remained available in special accounts.
For example, the Agency provided documentation showing that one special account alone had
approximately $100 million in past recovery costs. In this case, EPA has a consent decree with
the PRP to “implement all Site cleanup actions in a future settlement.” Such a settlement would
include applicable financial assurance to cover the costs of cleanup should the PRP become
recalcitrant or become unable to pay for cleanup. Under the Agency’s policy, as much as the full
$100 million could be reclassified to clean up the priority Superfund sites; or consistent with the
consent decree for the site, the funds could be transferred to the Trust Fund. Thus, this is an
example where EPA could be losing the opportunity to address other priority Superfund sites.

Trust Fund resources must be appropriated by Congress before they are available to EPA. The


                            33 

Agency believes this process is not necessary to put transferred or reclassified special account
funds into productive use. According to the Agency, the reclassification process does not require
going through the Trust Fund appropriation process; the Agency can apply “site-specific special
account funds from PRPs to previous expenditures from appropriated Trust Fund dollars” for
cleanup at other sites.

Depositing some of EPA’s recovered past costs into special accounts may be inconsistent with
EPA’s “polluter pays” principle, meaning the polluters pay for the problems they create and
taxpayer money is used when there are no viable PRPs. While the PRP is reimbursing the EPA
for its past costs, these funds could be maximized either by (1) funding other priority Superfund
cleanups where there is no viable PRP or where the human health exposure environmental
indicator is classified as “not under control,” or (2) depositing the funds into the Trust Fund
where they can potentially offset any contributions for the appropriation from general revenues
which are paid by the general taxpayer. Since the general revenue funded the Superfund
appropriations for FY 2004 and 2005, this shifted the burden to the taxpayers, not the “polluters.”

Our recommendation would not deplete special accounts of all of their funding. Even if all
available funds we identified were transferred or reclassified, as of September 30, 2005,
approximately $365 million would still be remaining in special accounts for PRP incentives and
to reimburse Government costs. In addition, the Agency has tools to ensure sites are cleaned up,
regardless of special account funds. Consistent with EPA’s “Enforcement First” approach and
Polluter Pays principle, EPA retains the opportunity to issue a unilateral administrative order to
require PRPs to clean up a site should they become recalcitrant.

We have modified the recommendation to “As of September 2005, approximately $465 million in
special accounts was potentially available for reallocation. EPA should timely review special
account dollars and set up a formal process and schedule to ensure special account funds are used
consistently according to the hierarchy specified in its guidance. This can include (1) using the
funds as a settlement incentive for responsible parties; (2) conducting EPA-led cleanups; (3)
applying the funds toward previous EPA expenditures at a site, which will allow funds previously
reserved for the site to be “deobligated” for use at other sites (also known as reclassification); and
(4) replenishing the Trust Fund.”




                            34 

                                                                            Appendix F

                                    Distribution

Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Assistant Administrator for Research and Development
Assistant Administrator for Air and Radiation
Assistant Administrator for Administration and Resources Management
Assistant Administrator for Enforcement and Compliance Assurance
Acting Assistant Administrator, Office of Environmental Information
Audit Liaison, Office of Solid Waste and Emergency Response
Audit Liaison, Office of Research and Development
Audit Liaison, Office of Air and Radiation
Audit Liaison, Office of Administration and Resources Management
Audit Liaison, Office of Enforcement and Compliance Assurance
Audit Liaison, Office of Environmental Information
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Inspector General




                                             35 

